OIG Investigative Reports, Thief Admits Identity Scam Used to get $300,000 in Student Loan
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Tuesday, January 20, 2004
U.S. Department of Justice
Office of the United States Attorney
District of Arizona
for Information Contact Public Affairs
HARRIET BERNICK
Telephone:  (602) 514-7736
Pager:  (602) 356-0004
Thief Admits Identity Scam Used to get $300,000 in Student Loans
PHOENIX, ARIZONA - The United States Attorney's Office  for the District of Arizona announced that on January 20, 2004, JOHN EDWARD CHRISTENSEN, (D.O.B. 4-21-41), of Mesa, Arizona, pled guilty to one count of Student Aid Fraud and one count of Identity Theft, in federal district court in Phoenix, Arizona. Christensen also admitted the forfeiture allegations of the indictment.
CHRISTENSEN had been charged with violating Title 20 of the United States Code, Section 1097, Student Aid Fraud, Title 42, United States Code, Section 408(a)(7)(B) (Social Security Fraud), Title 18, United States Code, Section 1029(a)(1) (Access Device Fraud) and Title 18, United States Code, Section 1028(a)(7) (Identity Theft).
According to the indictment in the case, beginning in 1999 and continuing until September 2003, CHRISTENSEN devised a scheme to use the personal identifying information of others as though it were his own, thereby concealing from lenders, schools, and the United States Department of Education the number and status of loans and other forms of student aid he had already received. According to the indictment CHRISTENSEN used more than 50 different identities to obtain about $313,416.  The personal information he used typically pertained to prison inmates serving long prison sentences.  The indictment also sought forfeiture of more than $58,000 from 10 bank accounts, $11,600 in U.S. currency found during searches, a house, and a car, all alleged to be proceeds of the scheme to defraud.
According to the complaint filed previously in this case, Christensen arrived at Mesa Community College on September 2, 2003, to claim an student financial aid check under the name of Frank Morgan.  Staff at the Financial Aid Office recognized Christensen as the same person who had claimed an aid check under the name George Aikens, and called campus security.  Christensen took off on foot shortly after security arrived, but was caught by campus security and Mesa Police.  Christensen then produced identification in the name of Joseph Bruce, and had in his possession identification in the names Frank Morgan and Donald Joy, according to the complaint.  According to the complaint, student loans were applied for or obtained in six different names (Frank Morgan, Donald Joy, George Aikens, Joseph Bruce, Paul Reed, and John Dubalski), at three local community colleges (Mesa Community College, Maricopa Community College, and Scottsdale Community College).
A conviction for Student Aid Fraud carries a maximum penalty of 5 years imprisonment, a $20,000 fine or both.  A conviction for Identity Theft carries a maximum penalty of 15 years imprisonment, a $250,000 fine or both.  Thus Christensen faces a potential sentence of 20 years and $270,000 fine.  Because of his admission of the forfeiture allegations, he faces forfeiture of his house, his car, computer and electronic equipment, and forfeiture of nearly $70,000 in cash and bank accounts.
CHRISTENSEN has been detained since his arrest on September 2, 2003.
Sentencing is set before Judge Roslyn O. Silver on March 22, 2004.
The investigation in this case was conducted by the Office of Inspector General of the United States Department of Education, the Office of Inspector General of the Social Security Administration, the U.S. Secret Service, the Mesa Police Department, and College Safety, Mesa Community College.
The prosecution is being handled by Daniel R. Drake, Assistant United States Attorney, District of Arizona, Phoenix, Arizona.
CASE NUMBER:	CR-03-1014-PHX
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov